                                SOCIAL SECURITY
                                  Office of the Inspector General

                                       November 8, 2010


The Honorable Michael J. Astrue
Commissioner


The Chief Financial Officers (CFO) Act of 1990 (P.L. 101-576), as amended, requires that the
Social Security Administration’s (SSA) Inspector General (IG) or an independent external
auditor, as determined by the IG, audit SSA's financial statements in accordance with applicable
standards. Under a contract monitored by the Office of the Inspector General (OIG), Grant
Thornton, LLP, an independent certified public accounting firm, audited SSA's Fiscal Year (FY)
2010 financial statements. This letter transmits Grant Thornton’s Independent Auditor’s Report
on the audit of SSA’s FY 2010 financial statements. Grant Thornton's Report includes the
following:

   •   Opinion on Financial Statements;
   •   Opinion on Management's Assertion about the Effectiveness of Internal Control; and
   •   Report on Compliance and Other Matters.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to determine whether the financial statements are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management as well as evaluating
the overall financial statement presentation.

Grant Thornton’s audit was conducted in accordance with auditing standards generally accepted
in the United States; Government Auditing Standards issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. The audit included obtaining an understanding
of the internal control, testing and evaluating the design and operating effectiveness of the
internal control, and performing such other procedures as considered necessary under the
circumstances. Because of inherent limitations in any internal control, misstatements because of
error or fraud may occur and not be detected. The risk of fraud is inherent to many of SSA’s
programs and operations, especially within the Supplemental Security Income program. In our
opinion, people outside the organization perpetrate most of the fraud against SSA.

Audit of Financial Statements, Effectiveness of Internal Control, and Compliance with
Laws and Regulations

OIG audited SSA’s FY 2009 financial statements and issued an unqualified opinion on the
statements. In its audit of the FY 2010 financial statements, Grant Thornton issued an
unqualified opinion. Grant Thornton also reported that SSA had effective internal control over
financial reporting based on criteria under OMB Circular A-123, Management’s Responsibility
for Internal Control and SSA’s financial management systems substantially complied with the
requirements of the Federal Financial Management Improvement Act of 1996.


            SOCIAL SECURITY ADMINISTRATION               BALTIMORE MD 21235-0001
Page 2 – The Honorable Michael J. Astrue

However, Grant Thornton did identify three deficiencies in internal control that, when
aggregated, are considered to be a significant deficiency related to a weakness in controls over
information security. Specifically, Grant Thornton testing:

   1. Disclosed that policies and procedures to reassess periodically the content of security
      access profiles had not been complied with consistently throughout the Agency.
   2. Disclosed evidence that security permissions provided to some employees and
      contractors were in excess of access required to complete their job responsibilities.
   3. Identified configurations that increased the risk of unauthorized access to key financial
      data and programs during our testing of the mainframe operating system

Grant Thornton identified no reportable instances of noncompliance with the laws, regulations,
or other matters tested.

OIG Evaluation of Grant Thornton Audit Performance

To fulfill our responsibilities under the CFO Act and related legislation for ensuring the quality
of the audit work performed, we monitored Grant Thornton’s audit of SSA's FY 2010 financial
statements by

   •   reviewing Grant Thornton’s approach and planning of the audit;
   •   evaluating the qualifications and independence of its auditors;
   •   monitoring the progress of the audit at key points;
   •   examining its workpapers related to planning the audit, assessing SSA's internal control,
       and substantive testing;
   •   reviewing Grant Thornton’s audit report to ensure compliance with Government Auditing
       Standards and OMB Bulletin No. 07-04;
   •   coordinating the issuance of the audit report; and
   •   performing other procedures we deemed necessary.
Grant Thornton is responsible for the enclosed auditor’s report, dated November 8, 2010, and the
opinions and conclusions expressed therein. The OIG is responsible for technical and
administrative oversight regarding Grant Thornton’s performance under the terms of the
contract. Our review, as differentiated from an audit in accordance with applicable auditing
standards, was not intended to enable us to express, and accordingly we do not express, an
opinion on SSA’s financial statements, management’s assertions about the effectiveness of its
internal control over financial reporting, or SSA’s compliance with certain laws and regulations.
However, our monitoring review, as qualified above, disclosed no instances where Grant
Thornton did not comply with applicable auditing standards.




                                                             Patrick P. O’Carroll, Jr.
                                                             Inspector General

Enclosure
                                                                                                   Enclosure
                                                                                                  Page 1 of 5




                                                                          Audit  Tax  Advisory
                                                                          Grant Thornton LLP
                                                                          333 John Carlyle Street, Suite 500
                                                                          Alexandria, VA 22314-5745
                                                                          T 703.837.4400
                                                                          F 703.837.4455
                                                                          www.grantthornton.com


The Honorable Michael J. Astrue
Commissioner
Social Security Administration

                          Independent Auditor’s Report

In our audit of the Social Security Administration (SSA), we found:

   •   The consolidated balance sheet of SSA as of September 30, 2010, and the related
       consolidated statement of net cost and changes in net position, and the combined
       statement of budgetary resources for the year then ended and the statement of social
       insurance as of January 1, 2010 are presented fairly, in all material respects, in
       conformity with accounting principles generally accepted in the United States of
       America;
   •   Management fairly stated that SSA’s internal control over financial reporting was
       operating effectively as of September 30, 2010;
   •   No reportable instances of noncompliance with laws, regulations or other matters tested.
OPINION ON FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheet of the SSA as of September 30,
2010, and the related consolidated statement of net cost and changes in net position, and the
combined statement of budgetary resources for the year then ended, and the statement of social
insurance as of January 1, 2010. These financial statements are the responsibility of SSA’s
management. Our responsibility is to express an opinion on these financial statements based on
our audit.

The consolidated balance sheet of SSA as of September 30, 2009, and the related consolidated
statement of net cost and changes in net position, and the combined statement of budgetary
resources for the year then ended were audited by other auditors whose report dated November 9,
2009 expressed an unqualified opinion on those statements. The statements of social insurance
as of January 1, 2009, 2008, 2007, and 2006 were also audited by other auditors whose reports
dated November 9, 2009 and November 7, 2008 expressed an unqualified opinion on those
statements.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
                                                                                           Enclosure
                                                                                          Page 2 of 5

Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above and presented on pages 100 through
130 of this Performance and Accountability Report (PAR), present fairly, in all material respects,
the financial position of SSA as of September 30, 2010, and its net cost of operations, changes in
net position, and budgetary resources for the year then ended, and the financial condition of its
social insurance program as of January 1, 2010, in conformity with accounting principles
generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the consolidated and
combined financial statements taken as a whole. The Additional Information presented on the
statement of social insurance as of January 1, 2010 is presented for purposes of additional
analysis and is not a required part of the consolidated and combined financial statements. Such
information has been subjected to the auditing procedures applied in the audit of the consolidated
and combined financial statements and, in our opinion, is fairly stated in all material respects in
relation to the consolidated and combined financial statements taken as a whole.

As discussed in Note 17 to the financial statements, the statement of social insurance presents the
actuarial present value of the SSA's estimated future income to be received from or on behalf of
the participants and estimated future expenditures to be paid to or on behalf of participants
during a projection period sufficient to illustrate long-term sustainability of the social insurance
program. In preparing the statement of social insurance, management considers and selects
assumptions and data that it believes provide a reasonable basis for the assertions in the
statements. However, because of the large number of factors that affect the statement of social
insurance and the fact that future events and circumstances cannot be known with certainty, there
will be differences between the estimates in the statement of social insurance and the actual
results, and those differences may be material.
OPINION ON MANAGEMENT’S ASSERTION ABOUT THE
EFFECTIVENESS OF INTERNAL CONTROL
We have also audited management’s assertion, included in the accompanying Federal
Managers’ Financial Integrity Act (FMFIA) Assurance Statement on page 43 of this PAR that
SSA’s internal control over financial reporting was operating effectively as of September 30,
2010 based on criteria established under OMB Circular No. A-123, Management’s
Responsibility for Internal Control. We did not test all internal controls, relevant to the
operating objectives broadly, defined by the Federal Managers’ Financial Integrity Act of 1982.
SSA’s management is responsible for maintaining effective internal control over financial
reporting and for its assertion of the operating effectiveness of internal control over financial
reporting. Our responsibility is to express an opinion on management’s assertion based on our
audit.

We conducted our audit in accordance with attestation standards established by the American
Institute of Certified Public Accountants (AICPA); the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether effective internal control over financial reporting
                                                                                            Enclosure
                                                                                           Page 3 of 5

was maintained in all material respects. Our audit included obtaining an understanding of
internal control over financial reporting, assessing the risk that a material weakness exists,
testing and evaluating the design and operating effectiveness of internal control based on the
assessed risk, and performing such other procedures as we considered necessary in the
circumstances. We believe that our audit provides a reasonable basis for our opinion.

An agency’s internal control over financial reporting is a process effected by those charged with
governance, management, and other personnel, designed to provide reasonable assurance
regarding the preparation of reliable financial statements in accordance with generally accepted
accounting principles. An agency’s internal control over financial reporting includes those
policies and procedures that (1) pertain to the maintenance of records that, in reasonable detail,
accurately and fairly reflect the transactions and dispositions of the assets of the agency;
(2) provide reasonable assurance that transactions are recorded as necessary to permit
preparation of financial statements in accordance with generally accepted accounting principles,
and that receipts and expenditures of the agency are being made only in accordance with
authorizations of management and those charged with governance; and (3) provide reasonable
assurance regarding prevention, or timely detection and correction of unauthorized acquisition,
use, or disposition of the agency’s assets that could have a material effect on the financial
statements.

Because of its inherent limitations, internal control over financial reporting may not prevent, or
detect and correct misstatements. Also, projections of any evaluation of effectiveness to future
periods are subject to the risk that controls may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate.

In our opinion, management’s assertion that SSA’s internal control over financial reporting was
operating effectively as of September 30, 2010, is fairly stated, in all material respects based on
criteria established under OMB Circular No. A-123.
Other Internal Control Matters
Our work identified the need to improve certain internal controls, as described below and in a
separate, limited-distribution management letter. A deficiency in internal control over financial
reporting exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and
correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control over financial reporting, such that there is a reasonable
possibility that a material misstatement of the agency’s financial statements will not be
prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency, or
a combination of deficiencies, in internal control over financial reporting that is less severe than
a material weakness, yet important enough to merit attention by those charged with governance.
Our audit was not designed to identify all deficiencies in internal control over financial reporting
that might be significant deficiencies. We identified the following deficiencies that we consider,
in combination, to be a significant deficiency in SSA’s internal control over financial reporting.
Significant Deficiency
Weakness in Controls Over Information Security
Our testing disclosed that policies and procedures to periodically reassess the content of security
access profiles had not been complied with consistently throughout the Agency. Our testing also
disclosed evidence that security permissions provided to some employees and contractors were
in excess of access required to complete their job responsibilities. Additionally, we identified
configurations that increased the risk of unauthorized access to key financial data and programs
during our testing of the mainframe operating system.
                                                                                        Enclosure
                                                                                       Page 4 of 5

Specific disclosure of detailed information about these exposures might further compromise
controls and are therefore not provided within this report. Rather, the specific details of
weaknesses noted are presented in a separate, limited-distribution management letter.

Recommendations

We recommend that SSA management implement policies and procedures that require a periodic
review of the content of all security profiles. These policies and procedures should enforce a
consistent approach for profile review and should require auditable artifacts to evidence the
completion of these reviews. If designed appropriately and implemented effectively,
management should be able to decrease the risk of personnel and contractors maintaining
excessive access to transactions and data.

We also recommend that management implement controls to test and monitor configurations on
the mainframe to identify and address inherent security risks. This should include a
comprehensive procedure to test new software and updates to existing software on the
mainframe prior to implementation. Management must also implement procedures that require
on-going monitoring of implemented mainframe configurations to identify and address security
risks.

More specific recommendations focused on the individual exposures we identified are included
in a separate limited-distribution management letter, which also includes management’s response
and their planned corrective actions.
REPORT ON COMPLIANCE AND OTHER MATTERS
The management of SSA is responsible for compliance with laws and regulations. As part of
obtaining reasonable assurance about whether the financial statements are free of material
misstatement, we performed tests of the compliance with laws and regulations, including laws
governing the use of budgetary authority, government-wide policies and laws identified in
Appendix E of OMB Bulletin No. 07-04, and other laws and regulations, noncompliance with
which could have a direct and material effect on the financial statements. Under the Federal
Financial Management Improvement Act of 1996 (FFMIA), we are required to report whether
the SSA’s financial management systems substantially comply with the Federal financial
management systems requirements, applicable Federal accounting standards, and the United
States Government Standard General Ledger at the transaction level. To meet this requirement,
we performed tests of compliance with FFMIA section 803(a) requirements.

We did not test compliance with all laws and regulations applicable to SSA. We limited our tests
of compliance to the provisions of laws and regulations cited in the preceding paragraph of this
report. Providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of noncompliance with laws and
regulations or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 07-04 and no instances of substantial noncompliance that are
required to be reported under FFMIA.
                                                                                          Enclosure
                                                                                         Page 5 of 5

OTHER INFORMATION
The Management’s Discussion and Analysis (MD&A) included on pages 5 through 46 and the
Required Supplementary Information (RSI) included on pages 136 through 151 of this PAR are
not a required part of the consolidated and combined financial statements but are supplementary
information required by the Federal Accounting Standards Advisory Board and OMB Circular
No. A-136, Financial Reporting Requirements. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement
and presentation of the MD&A and RSI. However, we did not audit the information and express
no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the consolidated and
combined financial statements taken as a whole. The Schedule of Budgetary Resources included
on page 135 of this PAR is not a required part of the consolidated and combined financial
statements but is supplementary information required by OMB Circular No. A-136. This
schedule and the consolidating and combining information included on pages 131 to 134 of this
PAR are not a required part of the consolidated and combined financial statements. Such
information has been subjected to the auditing procedures applied in the audit of the consolidated
and combined financial statements and, in our opinion, is fairly stated in all material respects in
relation to the consolidated and combined financial statements taken as a whole.

The Commissioner’s Message on page 1 and the other accompanying information included on
pages 2 through 4, 47 through 96 and 163 to the end of this PAR is presented for purposes of
additional analysis and is also not a required part of the financial statements. Such information
has not been subjected to the auditing procedures applied in the audit of the consolidated and
combined financial statements, and accordingly, we express no opinion on it.

Our report is intended solely for the information and use of management of SSA, the Office of
the Inspector General, the OMB, the Government Accountability Office, and Congress and is not
intended to be and should not be used by anyone other than these specified parties.




Alexandria, Virginia
November 8, 2010
